U.S. Department of Justice
Office of the Inspector General




A Review of the September 2005
Shooting Incident Involving the
Federal Bureau of Investigation and
Filiberto Ojeda Ríos




                    DRAFT
              EXECUTIVE SUMMARY


                                  Office of the Inspector General
                                                     August 2006
I.    Background

       On September 23, 2005, agents from the Federal Bureau of
Investigation (FBI) attempted to arrest long-time fugitive Filiberto Ojeda
Ríos (Ojeda) at a residence on a rural hillside near Hormigueros, Puerto Rico.
Ojeda was one of the founders and leaders of the Ejército Popular Boricua, also
known as the “Macheteros” (Cane-Cutters), an organization that claimed credit
for various violent crimes during the late 1970s and 1980s in pursuit of
independence for Puerto Rico.

       A team of FBI agents attempted to enter the residence to arrest Ojeda at
4:28 p.m. The operation resulted in a brief but intense exchange of gunfire
between Ojeda and the FBI. Three agents were shot and one was seriously
wounded; Ojeda was not hit. The agents did not enter the house or complete
the arrest. The gunfight was followed by a standoff during which Ojeda’s wife
surrendered and FBI agents engaged in a dialog with Ojeda. At 6:08 p.m., an
FBI agent saw Ojeda through a window and fired three shots at him. Several
agents heard Ojeda cry out and fall. The FBI did not enter the house until
shortly after noon the next day, at which time the agents found Ojeda on the
floor, dead from a single bullet wound that punctured his lung.

      Journalists, elected officials, and activists in Puerto Rico criticized the
FBI for using excessive force to capture Ojeda, for conducting the operation on
El Grito de Lares (a holiday of great significance to the Puerto Rican
independence movement), and for waiting 18 hours after Ojeda was shot before
entering the house, thereby allowing Ojeda to bleed to death.

       On September 26, FBI Director Robert Mueller requested that the Office
of the Inspector General (OIG) conduct an investigation to determine the facts
and circumstances of the Ojeda shooting incident and to make
recommendations regarding what actions, if any, the FBI should take in
connection with it. The FBI and the United States Attorney General also
received written requests from several United States Representatives and other
elected officials for an independent investigation of the circumstances of
Ojeda’s death.

      The OIG initiated this investigation after receiving Director Mueller’s
request. In August 2006, we completed a 172-page report detailing our
findings and recommendations. This Executive Summary, which is also being
made available in Spanish, summarizes the full report.


II.   The Methodology of the OIG Investigation

       The OIG’s objective in conducting this review was to investigate the facts
relating to the incident, and: (1) to determine whether the FBI agents involved


                                        1
in the operation complied with the Department of Justice’s Deadly Force Policy;
(2) to assess the FBI’s decision to conduct an emergency daylight assault of the
Ojeda residence in light of other potential options for apprehending Ojeda; (3)
to assess the FBI’s planning for and conduct of negotiations with Ojeda during
the standoff; (4) to determine the reasons the FBI waited 18 hours after the
shooting to enter the residence; and (5) to evaluate communications between
the FBI, the Commonwealth of Puerto Rico, and the public regarding the
operation. As the investigation proceeded, the OIG identified several additional
issues that are addressed in this report, including anonymous allegations that
the FBI had bypassed numerous opportunities to arrest Ojeda under
circumstances less likely to result in violence.

      The OIG investigation was conducted by a team of attorneys and OIG
Special Agents. In the course of the investigation, the OIG interviewed over 60
individuals, including personnel from the FBI Counterterrorism Division in
Washington, D.C., and agents from the FBI’s Critical Incident Response Group
(CIRG) in Quantico, Virginia. These interviews included all of the agents who
discharged their weapons or otherwise participated in the assault on Ojeda’s
residence, as well as other CIRG agents who planned, participated in, or had
knowledge of the operation. We also interviewed personnel from the San Juan
Division of the FBI (San Juan FBI) and the U.S. Attorney’s Office for the
District of Puerto Rico who were involved in the Ojeda matter. OIG
investigators interviewed officials from the Department of Justice of the
Commonwealth of Puerto Rico and the Police of Puerto Rico (POPR). We also
spoke with several persons living in the area near the Ojeda residence.

       The OIG reviewed thousands of pages of documents generated by the FBI
and the U.S. Attorney’s Office relating to the Ojeda matter, including draft and
final Operations Plans and Orders, investigative files, court filings,
photographs, logs, intelligence reports, text messages, and relevant FBI
policies, procedures, and training manuals.

       In addition, the OIG reviewed relevant forensic reports prepared by the
Instituto de Ciencias Forenses (the Puerto Rico Institute of Forensic Sciences)
related to the Ojeda incident. These reports included the autopsy report, bullet
and shell casing analyses, trajectory analysis, shooting reconstruction, and
blood pattern analysis. We also conducted three lengthy interviews of
Dr. Pio R. Rechani López, the Executive Director of the Institute, and other
scientists involved in preparing the forensic reports. The OIG acknowledges
the cooperation of Puerto Rico Attorney General Roberto J. Sánchez Ramos and
Dr. Rechani in making the forensic reports and scientists available to us.

      The OIG also consulted with the U.S. Department of Defense Armed
Forces Institute of Pathology, Office of the Armed Forces Medical Examiner
(OAFME), regarding how long Ojeda survived after being shot. The OAFME



                                       2
provided a written report on this issue and responded to questions from the
OIG.

       In addition, the OIG recruited three experts in tactical police operations
to provide expert input and guidance on the FBI’s tactical decisions in the
Ojeda operation and the agents’ compliance with the Department of Justice
Deadly Force Policy: (1) Ronald M. McCarthy, a former Field Supervisor for the
Los Angeles Police Department Tactical Unit who previously served on the U.S.
Department of Justice Waco review committee and who has testified before the
United States Congress as an expert in police special operations; (2) Michael S.
Foreman, the former Chief of the Sheriff’s Office for Orange County, Florida,
who has 24 years of experience in the field of special weapons and tactics as a
team leader and SWAT commander; and (3) Gary Van Horn, the Assistant
Director in the Office of Law Enforcement and Security at the U.S. Department
of the Interior, who has over 30 years of law enforcement experience.

      During the course of its review, the OIG was unable to interview
some witnesses and obtain some potentially relevant written materials.
The attorney for Ojeda’s widow declined our request to interview her as
well as our request for access to the Ojeda residence. The Department of
Justice of the Commonwealth of Puerto Rico declined our request for
access to statements collected from approximately 40 witnesses,
including individuals living in the neighborhood near the Ojeda
residence, as well as an expert report prepared for the Commonwealth
regarding the survivability of Ojeda’s wound. A Commission of the
Puerto Rico Bar Association conducted an investigation of the Ojeda
incident, but the Bar Association did not respond to written and
telephonic requests from the OIG for information collected in that
investigation. We believe, however, that although this information might
have been useful to the OIG’s investigation, our findings and conclusions
were not materially affected by our inability to obtain access to it.


III.   Planning the Operation

      In this section of the Executive Summary, the OIG summarizes historical
information regarding Ojeda and the Macheteros, and then describes the FBI’s
planning for the Ojeda arrest operation.

       A.   Historical Background Regarding Ojeda and the Macheteros

      Ojeda was born in Puerto Rico in 1933. In the mid-1970s Ojeda helped
to organize the Macheteros. The publicly stated goal of the Macheteros is to
obtain the independence of Puerto Rico by armed struggle against the United
States government. The FBI considers the Macheteros to be a terrorist
organization. Ojeda was the leader of and spokesman for the Macheteros.


                                        3
      The Macheteros have claimed responsibility for various acts of violence in
Puerto Rico, such as the murder of a police officer in Naguabo, Puerto Rico, in
August 1978 and the killing of U.S. Navy sailors in Puerto Rico in 1979 and
1982.

      The Macheteros have also claimed responsibility for numerous bombings
in Puerto Rico. On October 17, 1979, the Macheteros conducted eight bomb
attacks against various federal facilities across Puerto Rico. In January 1981,
the organization used bombs to destroy nine U.S. fighter aircraft at the Muñiz
Air National Guard Base in Carolina, Puerto Rico. Later the same year, the
Macheteros bombed three separate buildings of the Puerto Rico Electric
Company. In 1983, the Macheteros fired a Light Anti-Tank Weapon (commonly
called a LAW rocket) into the U.S. Federal Building in Hato Rey, Puerto Rico,
damaging the offices of the U.S. Department of Agriculture and the FBI. In
January 1985, the Macheteros fired a LAW rocket into a building in Old
San Juan that housed the U.S. Marshals Service and other federal agencies.

      The Macheteros also conducted robberies to finance their activities,
including the theft of $7.1 million from a Wells Fargo facility in West Hartford,
Connecticut on September 12, 1983. The Wells Fargo robbery was one of the
largest bank robberies in U.S. history.

       On August 30, 1985, the FBI conducted a large-scale operation in
Puerto Rico to arrest Ojeda and other alleged members of the Macheteros in
connection with the Wells Fargo robbery. According to contemporaneous FBI
accounts, Ojeda did not respond to loud announcements from the agents of
their presence and intent to execute a warrant at his residence. When the FBI
entered Ojeda’s residence, Ojeda fired several shots down a stairway at the
arrest team. One of the shots ricocheted and struck an agent, permanently
blinding him in one eye. Ojeda fired more shots and threatened to shoot
anyone who attempted to climb the stairs. After a dialog with the agents,
Ojeda allowed his wife to surrender to the FBI. A few minutes later, Ojeda
appeared at the base of the stairs holding a pistol in his left hand and an Uzi
shoulder weapon in his right hand. The agents instructed him in Spanish and
English to drop his weapons. According to the agents, Ojeda then raised the
pistol. One of the agents fired at Ojeda. The shot struck Ojeda’s pistol and
knocked it from his hand. Ojeda dropped the Uzi and was subdued by the
agents.

      Ojeda represented himself in his 1989 trial in Puerto Rico on the charge
of assaulting the FBI agents during the arrest operation, arguing self defense.
He was acquitted by a jury.

       Ojeda was released on bond pending trial in Connecticut on charges
relating to the Wells Fargo robbery. On September 23, 1990, Ojeda cut off his


                                        4
electronic monitoring device and announced that he had gone back
underground to continue the struggle against the government of the United
States. Ojeda thereby violated the conditions of his release and became a
federal fugitive. The United States District Court in Connecticut issued an
arrest warrant the next day, charging Ojeda with bond default. In July 1992,
Ojeda was tried in absentia in Connecticut and found guilty on 14 counts
related to the Wells Fargo robbery, fined $600,000, and sentenced to 55 years
in prison.

      After becoming a fugitive in 1990, Ojeda periodically gave interviews to
the media in Puerto Rico, and his recorded speeches were played at pro-
independence rallies. According to media accounts and FBI files, in these
statements Ojeda reiterated that the Macheteros remained active as an
organization and he continued to advocate an “armed struggle” for
independence. In 2003, Ojeda issued a letter condemning an FBI “wanted”
advertisement that included a photograph of his wife. Ojeda described the
Macheteros as “indestructible” and urged supporters to send him the names of
FBI agents in Puerto Rico for future publication.

      B.    The FBI Locates Ojeda in Hormigueros

       The Ojeda arrest operation was the culmination of a major investigative
effort by the San Juan FBI that was led by Special Agent in Charge (SAC) Luis
Fraticelli. In early September 2005, the San Juan FBI determined that Ojeda
and his wife were likely living in a house located on a rural hillside in
Hormigueros, on the west side of Puerto Rico. At this point, the San Juan FBI
had not seen Ojeda at the house. The San Juan FBI was concerned that the
remote location and rugged terrain would make it difficult to confirm Ojeda’s
presence using conventional surveillance techniques.

      C.    Deployment of the Hostage Rescue Team

       On September 13, 2005, FBI Headquarters approved a request from SAC
Fraticelli for the deployment of the FBI’s Hostage Rescue Team (HRT) to
conduct a tactical assessment for the purpose of arresting Ojeda. Based in
Quantico, Virginia, the HRT is a full-time, national level tactical team that,
among other missions, deploys in support of FBI field division operations. HRT
is a component of the Tactical Support Branch in the FBI’s Critical Incident
Response Group (CIRG), which also includes the Operations and Training Unit
and the Tactical Helicopter Unit. The Operations and Training Unit supports
HRT by providing operations management, planning and oversight during HRT
deployments. The Tactical Helicopter Unit provides aviation support.




                                       5
      The San Juan FBI sought the assistance of highly specialized HRT
“sniper-observers” to conduct covert surveillance to determine whether Ojeda
was present and to gather intelligence relevant to an arrest. 1 In addition, SAC
Fraticelli said he sought HRT’s expertise in conducting the arrest because he
was concerned that Ojeda would likely “shoot it out” with the FBI again and
that Ojeda might use grenades or explosives.

       D.     The Surveillance and Arrest Plans

      Agents from the HRT and the Operations and Training Unit prepared
plans for a two-phase operation: a surveillance phase followed by an arrest
phase. During the surveillance phase, a team of HRT sniper-observers would
conduct covert surveillance of the residence, with emphasis on confirming
Ojeda’s presence. The sniper-observers would also collect other information
relevant to a potential arrest operation, such as identifying the location and
composition of “breach points” where the arresting agents could enter the
residence.

       The plan also called for a Quick Reaction Force to be made up of agents
from HRT and the San Juan FBI in vehicles stationed at a location a short
drive from Ojeda’s residence. The function of the Quick Reaction Force would
be to extract the sniper-observers in the event of compromise and to be
prepared for arrest contingencies.

      The FBI planners did not make detailed plans for the arrest phase in
advance of the operation because they expected that the specific tactics would
depend in large part on the results of the surveillance phase. HRT’s preference
and primary focus was to make the arrest outside of the residence, such as in
a vehicle stop while Ojeda was leaving or approaching the residence.

       The FBI plan did not address a scenario in which the FBI would
surround the residence and call for Ojeda to surrender, even as a least
preferred course of action. SAC Fraticelli told the OIG that he wanted to avoid
a standoff or “barricaded subject scenario” because he was concerned that
Macheteros sympathizers would assemble near the scene in large numbers and
that it would be difficult to control the situation.

      In preparing for the operation, the HRT Commander and Deputy
Commander decided not to include negotiators from the CIRG Crisis
Negotiation Unit (CNU) in Quantico as part of the team. However, SAC


         1 Within the FBI, a “sniper-observer” is an agent highly trained in marksmanship, field

skills, and observation. Deployed sniper-observer teams are responsible for collecting and
relaying intelligence about a target, responding to imminent threats, and supporting tactical
assaults.



                                               6
Fraticelli made arrangements for two trained negotiators from the San Juan
FBI to be available during the operation.

      Consistent with FBI crisis management guidelines, the plan for the Ojeda
operation provided that SAC Fraticelli was at the top of the Tactical Chain of
Command, followed by an Assistant Special Agent in Charge (ASAC) from the
San Juan FBI, the HRT Deputy Commander, and the HRT Squad Supervisor.

       In planning the arrest operation, the FBI took into account the annual
celebration of El Grito de Lares on September 23. San Juan FBI investigators
believed that Ojeda might leave his residence and attend the celebration in the
city of Lares, thereby presenting an opportunity for a safe arrest away from the
residence.

       On September 19, HRT set up a Tactical Operations Center (TOC) at a
location approximately 25 miles from Ojeda’s residence. In general, the TOC
was staffed throughout the operation by the HRT Deputy Commander and
other CIRG personnel. The agents in the field communicated with the TOC by
radio and cell phone. The San Juan FBI set up a Command Post on a different
floor in the same building. In addition, the San Juan FBI Command Post was
staffed by SAC Fraticelli, two ASACs, and various agents from the San Juan
FBI.

      As part of its surveillance plan, the FBI assigned color designations to
the four sides of Ojeda’s house in order to facilitate communications. Facing
the house, the front side was designated “White,” the left side was designated
“Green,” the right side was designated “Red,” and the rear side of the house
was designated “Black.”

      E.    The Role of the Police of Puerto Rico

      The POPR was aware that the FBI had been attempting to locate Ojeda,
and had provided some assistance to the FBI in this effort. However, the FBI
did not give advance notice to the POPR that the FBI had located Ojeda in
Hormigueros and was planning to arrest him there. SAC Fraticelli stated that
he did not provide advance notice to the POPR because he wanted to keep the
operation secret and limit the possibility of leaks. The POPR did not receive
notice of the arrest operation until after the FBI began the attempt to arrest
Ojeda and the exchange of gunfire, which we describe below, at which time
POPR officers responded to the scene and established an outer security
perimeter.




                                       7
IV.   Chronology of Events in the Operation

      In this section of the Executive Summary, the OIG sets forth a detailed
chronology of events in the implementation of the Ojeda surveillance and arrest
operation.

      A.    Events on September 22

      A team of FBI sniper-observers initiated surveillance of the Ojeda
residence before dawn on Thursday, September 22. During daylight hours, the
sniper-observers withdrew to a position under cover of vegetation a short
distance from the residence.

       Later that day, the United States District Court for the District of Puerto
Rico issued a search warrant for the residence. The warrant authorized the
FBI to execute the search at any hour of the day or night for evidence of
violations of several criminal statutes. The original arrest warrant issued in
1990 for Ojeda’s failure to appear at trial for the Wells Fargo robbery remained
outstanding.

      B.    Overnight Events on September 22-23

      The sniper-observers resumed surveillance of the residence after dark on
September 22. As one of the sniper-observers moved along a fence around the
residence, two dogs began barking excitedly. Lights came on inside the
residence and at a neighboring residence. The sniper-observer saw a woman
on the porch and heard her talking to a man who was in the yard inside the
fence, with a flashlight. The man walked close to where the sniper-observer
was hiding, but apparently did not see him. The sniper-observer described the
man as elderly, with white hair and a medium build, which met the description
of Ojeda provided by the San Juan FBI. The sniper-observer stated that he
could not see the man’s face clearly, but based on the San Juan FBI
description and other information, he concluded the man was Ojeda. This
information was relayed back to the TOC at 11:43 p.m. on September 22.

       SAC Fraticelli and the HRT Deputy Commander considered whether to
order an immediate operation to arrest Ojeda on the morning of September 23.
They ultimately concluded that the available information regarding the house
was inadequate to assure a successful breach of the front door without killing
or injuring the occupants.

      The FBI was hopeful that Ojeda would depart the residence by car later
that morning to attend the El Grito de Lares celebration, and that he could be
apprehended by the Quick Reaction Force at that time. Fraticelli and the HRT
Deputy Commander doubled the size of the Quick Reaction Force team on duty
between 6:00 a.m. and approximately 10:00 a.m. on September 23, using all


                                        8
available agents from HRT together with SWAT Team agents from the San Juan
FBI. In addition, numerous agents from the San Juan FBI were assigned to
maintain surveillance coverage at all potential vehicle exit routes near the
residence. However, the FBI did not observe Ojeda again that morning.

     C.    Plan for a Pre-dawn Arrest Operation on September 24

      Based on information about the residence provided by the sniper-
observers and advice from the HRT Deputy Commander, Fraticelli decided on a
deliberate assault of the residence to arrest Ojeda in the pre-dawn hours of
September 24, when Ojeda was expected to be sleeping. At approximately
10:00 a.m. on September 23, all of the HRT agents serving on the Quick
Reaction Force returned to their base to rest and prepare for the assault the
next morning. Agents from the San Juan FBI SWAT Team assumed Quick
Reaction Force responsibilities.

       The HRT and Operations and Training Unit agents prepared a plan for
the assault. The plan called for the sniper-observers to approach the house
late on September 23 to confirm Ojeda’s presence. Early on September 24, the
assault units would be delivered by vehicle to a location near the residence,
and they would advance toward the house surreptitiously on foot. The assault
units would approach the White side of the house, proceed through the front
yard, and advance up onto the porch. One group would breach the residence
at a door near the Red/White corner, and another group would breach the
house at the large window on the Green side. Because the FBI had a “no-
knock” search warrant, HRT did not plan to announce itself before breaching.
Once inside, the agents would conduct a rapid room-to-room maneuver, called
a “clear,” until they captured Ojeda and secured the residence.

     D.    The Compromise of the Sniper-Observers

       At approximately 2:30 p.m. on September 23, the sniper-observers were
at their daytime position of cover, in the woods away from the house. One
sniper-observer saw a vehicle stop near a trailhead leading toward their
position. A second vehicle arrived several minutes later. The sniper-observer
heard people talking but could not understand what they said because he does
not speak Spanish. Other sniper-observers who were positioned further away
from the road also told the OIG that they heard vehicles and voices, but they
could not make out what was said. The first sniper-observer moved into
position to observe what the speakers were doing, and he saw someone
pointing at the ground and toward the trailhead.

       The sniper-observers became concerned that the person gesturing
toward the trailhead had detected evidence that the sniper-observers had used
the trail and their presence had been detected. The sniper-observers’ concern
was heightened by the fact that the barking dog incident had occurred the


                                      9
night before and by the belief that the local population included Macheteros
sympathizers. The sniper-observers reported these events to the TOC by radio
and recommended to the TOC that the Quick Reaction Force “get here ASAP
and hit the house.” Several of the sniper-observers told the OIG that their
primary concern was that Ojeda would receive warning of their presence and
would escape and return underground.

       Fraticelli and the HRT Deputy Commander discussed a course of action
in response to the reported compromise of the sniper-observers. The accounts
of the deliberations differed somewhat between the participants. However, it is
undisputed that, based on the recommendation of the HRT Deputy
Commander, Fraticelli decided to proceed immediately with the arrest plan that
HRT had devised for the pre-dawn hours of September 24. The primary
modification of the plan was to transport the arrest team by helicopter to a
small banana field in front of the house and have the team “fast rope” to the
ground. Fraticelli told the OIG that he was concerned that the FBI would lose
the advantage of surprise in this kind of daytime assault by helicopter, but that
after consulting with the HRT Deputy Commander he became convinced that
an immediate assault on the house was the best option.

      E.    Transportation to the Target

      Fraticelli made the final “go” decision for the emergency daylight assault
at approximately 3:45 or 4:00 p.m. on September 23. Ten HRT assaulters
boarded two helicopters. The agents were equipped with helmets, standard
issue body armor bearing “FBI” identifiers, and HRT-issued .223 caliber M4
carbine shoulder weapons.

      The San Juan FBI SWAT units were at that time stationed in Quick
Reaction Force vehicles a few minutes away from the house. The TOC
instructed two of the agents to link up with HRT assaulters when they were
dropped by helicopter at the banana field and to assist in the assault. The
remainder of the Quick Reaction Force was assigned to address any threat
posed by any persons at or near a neighboring residence, including those who
had been seen or heard near the location of the sniper-observers. Numerous
other agents from the San Juan FBI, including two negotiators and an ASAC
who was also a negotiator, were summoned to assist at the scene. The HRT
sniper-observers moved to various locations around the house and awaited the
helicopters.

      The HRT helicopters departed for the scene at approximately 4:00 p.m.
As the HRT helicopters were approaching the GPS coordinates the pilots had
been given for the Ojeda residence, they passed over an open area that ended
approximately 1/10 of a mile south of the target coordinates. The pilots could
not see the target residence. One pilot sought assistance from the sniper-
observers on the radio but did not hear anything. The lead pilot did not want

                                       10
to fly over the target residence, so shortly after passing over the edge of the
open area he made a clockwise turn back toward it. The second helicopter
made a similar turn. The assaulters completed a rope drop into the open area,
which was on a steep slope.

      On the ground, the 10 HRT assaulters realized that they were not at the
planned banana field landing zone. They moved quickly up a steep hill to a
road, where they encountered an agent from the San Juan FBI at a vehicle
surveillance point in an SUV. The assaulters got into the SUV or climbed on its
running boards and rear bumper, and the agent drove them quickly to the
Ojeda residence.

      F.    The Assault on the Ojeda Residence

      At 4:28 p.m., the SUV carrying the 10 HRT assaulters approached the
residence. As the SUV approached, two sniper-observers moved closer to the
house, and they were detected by dogs inside the fence, which began barking
loudly. Another sniper-observer moved forward to open the closed driveway
gate to the residence, but the vehicle crashed through the gate toward the
house without stopping. The SUV came to a stop in the front yard, near a low
cement wall.

       A break in the wall lead to cinder block steps running up a short but
steep embankment to an open balcony porch along the White (front) side of the
house. The front door was at the top of the steps, and there was another
doorway covered by a wooden gate near the Red/White corner of the house.
Between the front door and the gated doorway there was a kitchen window with
slatted panes.

      Figure A shows the front of the house much as the agents would have
seen it when they approached, with many features of the residence obscured by
vegetation. Figure B is a photograph taken after the foliage was removed, with
several important features of the residence labeled. Figure C is a three-
dimensional rendering of the interior of the residence, with important features
labeled.

      When the SUV was approaching the residence, a sniper-observer who
was already positioned near the house threw a non-lethal “flash-bang” grenade
toward the Green/Black corner of the house as a diversionary tactic. Several
HRT assaulters told the OIG that they thought they heard small arms semi-
automatic gunfire from the house even before the SUV stopped. Other
assaulters told us they perceived small arms fire coming from the kitchen




                                      11
                         FIGURE A
View of the Front of the Residence (Before Foliage Removed)




                            12
                                 FIGURE B
Selected Features on Front (White) Side of Residence (Foliage Removed)




                Kitchen Window
                                  Gated Doorway
Front                                                                 Retaining Wall
Door

                                                    Alcove




                                                                             Gazebo




                                                                     Garden Shed




                                      Embankment
        Steps


                                                   Low Cement Wall



                                     13
                                FIGURE C
                 3-D Diagram of Interior of the Residence




                                              Front Door
         Balcony Porch Roof




                                 Kitchen Window



                                          Refrigerator




                 Gated Doorway
                                                  Kitchen Doorway


Gazebo

                                                                    Narrow Hallway




                   Alcove




                                                         14
window as they left the SUV and approached the front of the house. 2 The
agents moved through the gap in the low cement wall up the cinder block
steps. A dog that had been frightened by the flash bang came running toward
the steps and an agent shot it to prevent an attack.

      Several of the agents reached the porch, and two agents moved to a gated
doorway into the house near the Red/White corner. (See the “gated doorway”
labeled in Figure B.) The remaining assaulters took various positions on the
steps and the embankment to each side of them but did not proceed forward
because of the gunfire from the house.

       As one of the agents began preparing to open the locked wooden gate in
front of the doorway near the Red/White corner, he saw that someone had
“goose-necked” a pistol from a door on the left interior side of the hallway. (See
the “kitchen door” labeled on Figure C.) The agent said he heard several shots
and felt impacts on his ballistic vest. He sought cover on the porch beneath
the kitchen window and soon realized that he had been wounded in the
abdomen. Another agent near the gated doorway also saw a handgun being
fired from the kitchen door behind the gate. The agent returned semi-
automatic fire into the hallway with his M4 carbine, firing a full magazine of
approximately 28 rounds.

       While the wounded agent was seeking cover beneath the kitchen window,
a gun was fired from inside the kitchen window. One shot struck the wounded
agent’s helmet from behind, but did not penetrate it. Another agent was struck
twice in the ballistic vest as he moved down the porch to attempt to assist the
wounded agent, but the other agent was not wounded. Several HRT agents
told the OIG that thy saw or heard a burst of automatic gunfire coming from
inside the kitchen window. At some point during the gunfight, an agent
located on the embankment below the porch was struck in the battery pack of
his helmet, but he was unhurt.

       Eight different HRT agents reported that they returned fire at the kitchen
window from various positions on the front porch or the embankment below it.
Collectively, the agents estimated that they fired approximately 80 rounds at
the kitchen window. Several agents told the OIG that near the end of the
gunfire exchange they perceived that several shots were fired from inside the




        2 According to several media accounts, Ojeda’s wife, Rosado, claimed that the FBI

agents fired first. However, Rosado declined to be interviewed for this investigation. As we
explain in this report, we concluded, based on the evidence and the testimony, that Ojeda fired
at the agents first.



                                              15
house through the front door, making holes in the door and shattering the
wood. 3

      Many of the agents reported that during the exchange of gunfire they
perceived that at least two different weapons were being fired from inside the
residence, possibly by two different subjects. Several factors were cited as the
basis for this belief: 1) several agents reported that they heard both automatic
and semi-automatic fire from inside the residence, leading them to believe that
two different guns were being fired; 2) agents reported that early in the
exchange shots were fired both out the kitchen window and out the kitchen
door toward the gated doorway, leading some agents to believe that there might
be two different subjects; and 3) as noted above, several agents misperceived
semi-automatic fire coming through the front door of the residence at a
moment simultaneous or nearly simultaneous with the bursts of automatic
gunfire coming from the kitchen window.

       The exchange of gunfire concluded at 4:30 p.m., about two minutes after
it began. One FBI agent was wounded. Ojeda was unhurt and the FBI had not
entered the house or made the arrest.

       G.     Events Following the Exchange of Gunfire

       After the firing subsided, the wounded agent was evacuated from the
porch and the other agents withdrew off the porch and the embankment to
positions offering better cover. The wounded agent was driven to a hospital
and later airlifted to San Juan, where he underwent emergency surgery.

       At approximately 4:48 p.m., a few minutes after the agent was evacuated
from the scene, someone inside the residence yelled in Spanish, “someone is
coming out.” The front door of the residence opened and Ojeda’s wife, Elma
Beatríz Rosado Barbosa (Rosado) emerged with her hands empty and extended
in front of her. An agent placed her face down on the ground and handcuffed
her. Rosado refused to speak to the San Juan FBI agents who attempted to
question her about conditions inside the house, including how many people
and weapons were in the residence, whether there were explosives, and if
anyone was injured. She was driven to the Metropolitan Detention center in
Guaynabo, and was released the next day without being charged.

      After the unsuccessful attempt to talk to Rosado, a San Juan FBI SWAT
agent began talking to Ojeda in Spanish. From behind the low cement wall
below the residence, the agent yelled for Ojeda to exit the residence with his

       3 As explained below, the Puerto Rico Institute of Forensic Sciences determined that

these holes were made by shots originating from outside into the residence. The OIG was
unable to determine which agent fired these rounds.



                                             16
hands raised. Ojeda asked who everybody was, to which agent responded, “the
FBI.” Ojeda responded that the agents were criminals, imperialists,
colonialists, and the mafia. The agent repeated that it was the FBI and asked
Ojeda whether he was injured. Ojeda stated that he wanted to talk to the
press. The agent told Ojeda that the press was not coming. Ojeda refused to
tell the agent whether anyone else was in the house and said that he would
only talk to a particular reporter, Jesus Dávila. 4 The agent told him that
Dávila was not coming and again asked Ojeda whether he was injured. Ojeda
responded, “I’m here.”

       Ojeda continued to refuse to surrender and began speaking in
revolutionary slogans that, according to the San Juan SWAT agent, sounded
like a rehearsed speech. The agent continued to attempt to communicate with
Ojeda, but Ojeda eventually said words to the effect of, “you know what I want,
shut up.”

      A negotiator from the San Juan FBI arrived at the scene and attempted
to open a dialog with Ojeda, but Ojeda repeated his demand for Dávila several
times. The negotiator contacted SAC Fraticelli by cell phone to report the
conversation. Fraticelli refused the request to bring Dávila, telling the
negotiator no one would be brought to the scene because it was too dangerous.

       The negotiator did not tell Ojeda of Fraticelli’s decision but continued
calling out to Ojeda. At some point, Ojeda responded, “I am not going to
negotiate with any of you until you bring the journalist Jesus Dávila. Then we
can talk about my surrender.” It is not clear that Ojeda’s use of the word
“surrender” ever reached Fraticelli, who told the OIG that he did not recall
hearing that Ojeda had discussed surrender. However, Ojeda’s statement was
relayed to HRT agents in the TOC.

      The San Juan FBI negotiator continued to call out to Ojeda, but Ojeda
did not respond further. Based on the TOC log and the agent’s statements, the
negotiator’s communications with Ojeda took place between approximately
5:30 and 6:00 p.m.

       Reports of the incident at Ojeda’s residence were broadcast on local radio
shortly after the exchange of gunfire between Ojeda and the HRT. Citizens,
including members of the press, soon gathered on a road near the scene.
Agents from the U.S. Bureau of Alcohol, Tobacco and Firearms, as well as
officers from POPR, arrived to provide outer perimeter security.



       4 Dávila is a journalist for El Diario La Prensa, a Spanish language newspaper that
covers events in Puerto Rico.




                                             17
       H.        Ojeda Struck by a Shot from the Perimeter

       Following the evacuation of the wounded agent at approximately
4:40 p.m., HRT agent Brian moved to a position on a hillside to the right of the
residence, behind a retaining wall. 5 Figure D is a photograph taken from
Brian’s approximate position. From this location Brian was able to keep watch
over both locations from which shots had previously been fired at the FBI: the
kitchen window and the gated doorway. Brian told the OIG he could see the
side of a light-colored refrigerator inside the left half of the kitchen window.
The refrigerator took up about half of his field of view inside the window. The
other half was in darkness. Brian told the OIG that while in his position on
hillside behind the retaining wall, he saw the refrigerator door open and the
refrigerator light go on. Brian said he saw an individual crouched down with a
gun in his left hand pointing out the window. He could not see the individual’s
eyes or tell where he was looking. Brian stated that the individual clearly had
the weapon pointed in the direction of Brian and other FBI agents, but he was
unsure whether the individual was sighting the gun at anyone in particular.
No other agent reported being in a position to see what Brian saw in the
window.

       Brian told the OIG that at that moment he realized that the individual
was armed and that Brian was visible to him. Brian was aware that another
agent had been wounded earlier by a shot from inside the house and that Brian
himself had been struck (but not wounded) by at least one shot from inside the
house during the original gunfight. Brian said he was also aware the
individual had previously fired his weapon from the window he was currently
positioned at and had shot Brian from that window. Brian stated that he
concluded that the individual posed an imminent threat to himself and other
agents.

       Brian said he took his weapon off the “safe” setting, sighted the weapon
where he believed the person’s center mass to be, and fired three rounds in
rapid succession in single-fire mode. Brian estimated that about three seconds
elapsed between the time he saw the refrigerator light come on and the time he
fired his weapon. Brian told the OIG he did not see the refrigerator light after
he took the shots and that it was possible that the individual was closing the
door of the refrigerator at the time Brian took the shots. The shots were fired
at approximately 6:08 p.m.

      Several agents told the OIG that immediately after hearing three shots
from the perimeter, they heard Ojeda scream “ay, ay, ay” and a noise like
someone falling down. One agent stated that he heard a moan after the

       5    “Brian” is a pseudonym. Brian was a member of the arrest team, not a sniper-
observer.



                                               18
                           FIGURE D
     View of Residence from Approximate Position of Shooter




               Front Door




Gazebo Roof                                       Gated       Alcove
                                                  Doorway



                                    Kitchen
                                    Window




                               19
screams. No witnesses reported hearing any other sounds from Ojeda. Several
agents told the OIG that they heard Brian state over the radio that he thought
he had hit the subject.

      I.        The Decision Not to Enter the House on September 23

      After the three shots were fired from the perimeter, the FBI began
making preparations to enter the Ojeda residence. The agents at the scene
wanted to enter the residence immediately. However, SAC Fraticelli and the
HRT Deputy Commander moved cautiously because of concern that Ojeda
might not have been disabled and the possibility that there was a second
gunman inside the house.

      At 6:34 p.m., the San Juan FBI contacted the power company to arrange
to cut off electricity to the residence, in order to provide a tactical advantage to
the HRT agents, who were equipped with night vision goggles. 6 At 6:49 p.m. an
HRT agent detonated an explosive charge that had been placed on the locked
wooden gate at the doorway near the Red/White corner of the residence. HRT
agents also detonated flash bangs at other locations to create a diversion. An
agent opened the wooden gate. There was no reaction from anyone inside the
house. The agents looked into the hallway behind the gate but did not see
anyone. They did not enter the house during this “limited breach.”

      The events in Puerto Rico were being monitored by the HRT Commander
in Quantico, Virginia. The HRT Commander told the OIG that shortly after
hearing about the limited breach of the gated doorway, he ordered the HRT
Deputy Commander in Puerto Rico not to enter the residence that night. The
HRT Deputy Commander did not recall receiving such an order, however. 7
Both the Deputy Commander and SAC Fraticelli told the OIG that the FBI
continued to make plans for entering the residence that night. By 7:41 p.m., a
team of HRT agents at the scene was equipped and ready to enter the
residence.

      By this time, however, senior officials in the Counterterrorism Division of
the FBI in Washington, D.C. had become concerned about how events were
unfolding in Puerto Rico. Willie Hulon, the Assistant Director for the
Counterterrorism Division, had already received telephone reports from SAC
Fraticelli regarding events at the scene. Hulon related these conversations to
his superior, Gary Bald, the Executive Assistant Director for the National

      6    The power to the residence was not cut off until 8:09 p.m.
        7 We could not reconcile the versions of events provided by the HRT Commander and

Deputy Commander. We note that the HRT Commander in Quantico was not part of the formal
chain of command at that point, and we found no evidence that the Commander’s order was a
factor in deliberations regarding the entry decision in Puerto between 6:08 and 8:05 p.m.



                                               20
Security Branch. On the basis of Hulon’s description of Fraticelli’s demeanor
during these telephone conversations and SAC Fraticelli’s repeated inquiries
regarding the status of his request that FBI Headquarters send another SAC
familiar with Puerto Rico to assist in the operation, Bald became concerned
that Fraticelli needed assistance in managing the situation. Bald felt his
concern was confirmed when he received the impression from Hulon that
agents at the scene were acting inconsistently with Hulon’s recommendation
that they hold the perimeter. Bald believed that there was confusion regarding
who was in command of the scene and that HRT was making decisions
independent of Fraticelli. On the basis of these concerns, Bald instructed
Hulon sometime shortly before 8:00 p.m. that any entry of the residence would
have to be approved by Hulon.

      At 8:05 p.m., Hulon called Fraticelli and told him that there would be no
entry of the residence without Hulon’s approval. During this call, Fraticelli and
the HRT Deputy Commander recommended that a nighttime entry be
conducted to take advantage of the darkness. Hulon instructed them to
submit a written entry plan to FBI Headquarters for consideration.

       A short time after the 8:05 call, Hulon and Bald discussed the
comparative merits of entering the house that night or the next day, and they
decided the entry should be postponed until the next morning. Therefore,
before the agents in Puerto Rico had completed a written plan for a nighttime
entry, Hulon told Fraticelli that Headquarters had decided against a nighttime
entry and that a new HRT team was being sent from Quantico to conduct the
entry the next day. Late in the evening, however, Fraticelli called Hulon’s
deputy, John Lewis, to make a final appeal for approval of a nighttime entry.
Fraticelli stressed the security concerns created by crowds of Macheteros
sympathizers assembled near the scene, and the possibility that Ojeda might
still be alive and in need of medical attention. Fraticelli told us that Lewis
called back approximately 15 or 20 minutes later and told him that Hulon had
rejected the proposal.

      At 11:33 p.m., the agents at the scene were told that there would be no
entry of the residence that night. Many of the HRT agents at the scene told the
OIG that they strongly disagreed with the decision.

      J.    Notification of the Puerto Rico Department of Justice

      During the course of the operation, the FBI provided periodic updates to
the United States Attorney’s Office (USAO) for Puerto Rico Between
approximately 6:45 p.m. and 7:15 p.m., the Criminal Chief for the USAO
contacted Roberto J. Sánchez Ramos, the Attorney General for the
Commonwealth of Puerto Rico, and Pedro G. Goyco Amador, the Chief
Prosecuting Attorney for the Commonwealth, to notify them of the shooting and
to request that local prosecutors be sent to the scene. Sánchez told the OIG

                                       21
that this was the first notification that the Puerto Rico Department of Justice
received from the FBI regarding an operation to apprehend Ojeda. Sánchez
and Goyco both told the OIG that they inferred from the USAO’s request that
Ojeda was seriously injured or dead. When the local prosecutors arrived at the
scene, at approximately 8:36 p.m., the FBI did not permit them to approach
the house, and at some point the FBI informed them that there would be no
entry that evening.

      K.    Entry of the House on September 24

      The relief team of HRT agents from Quantico arrived in Puerto Rico at
approximately 5:00 the next morning, September 24. Agents in the TOC
drafted a written plan for a daytime entry and faxed it to FBI Headquarters.
Hulon and Lewis reviewed the draft and recommended minor changes by
telephone. At 9:29 a.m., Hulon called Fraticelli and told him the revised plan
was approved.

      The daytime entry was not conducted until three hours after the plan
was approved. The entry plan called for inserting a POPR dog into the
residence to determine the location or activity of any occupants. The POPR dog
did not arrive until about 11:54 a.m., and stayed only briefly because the
handler received instructions from POPR Superintendent Pedro A. Toledo
Dávila not to participate in the operation. Toledo told the OIG that he denied
the FBI permission to use POPR’s dog because he understood that the FBI
feared there might be explosives in the residence and Toledo did not want to
put POPR’s dog handler at risk. Hulon approved Fraticelli’s request for
permission to conduct the entry without a dog at 12:22 p.m.

       The HRT entry team walked up the road adjacent to the Red side of the
residence. At approximately 12:34 p.m., three diversionary flash-bang
grenades were thrown as the team climbed over a retaining wall, entered the
residence through the breached wooden gate, and then advanced through the
kitchen door into the kitchen. The agents discovered Ojeda’s body near the
front door, face down with a loaded and cocked Browning Hi-Power 9 mm
handgun on the floor nearby. Blood from the body had flowed under the door,
forming a single narrow stream down the face of the doorstep and creating a
bloodstain on the floor of the exterior balcony porch.

      Ojeda was dressed in a camouflaged cap, a sleeveless body armor vest,
camouflaged overalls, and black combat boots. An FBI emergency medical
technician was unable to get a pulse from the body and observed that rigor
mortis had set in. After searching the house for any additional occupants, the
entry team reported at 12:37 p.m. that the residence was secure and there
appeared to be a single dead subject.




                                      22
        The entry team did not immediately turn Ojeda’s body over because of
concern that a grenade could be under Ojeda’s torso or in his left hand, which
was under his body and not visible. A winch was attached to Ojeda’s vest and
the body was pulled out over the front door step onto the porch. Ojeda’s hand
fell free and no explosive device was found. The process of pulling the body out
the door caused a substantial amount of accumulated blood to be pushed over
the doorstep and increased the amount of blood visible on the face of the
doorstep.

      The FBI’s bomb technicians turned their attention to two items in the
house identified as possible explosive threats. A case with protruding wires
was removed and opened using the winch. It contained a trumpet. 8 A large
rucksack found in the bedroom was inspected visually, and no explosive
hazards were observed.

       At approximately 2:44 p.m., the San Juan medical examiner pronounced
Ojeda dead. The scene was turned over to investigators from the Puerto Rico
Institute of Forensic Sciences for processing. These investigators removed
Ojeda’s body from the residence at approximately 5:00 p.m. A search of the
residence was concluded at 9:30 p.m. According to the Evidence Recovery Log,
the FBI seized over 100 items from the residence, including a substantial
amount of computer equipment, books, and other documents.


V.     Findings of the Puerto Rico Institute of Forensic Sciences

      In this section of the Executive Summary, the OIG summarizes the
findings of the Puerto Rico Institute of Forensic Sciences relevant to this
investigation. The Institute assumed the lead role in processing the scene and
conducting the forensic analyses relevant to the Ojeda matter. The Institute’s
findings were based entirely on the physical evidence; the Institute was not
aware of the contents of the agents’ statements to the OIG.

       One reason that the FBI deferred to the Institute for the forensic analysis
was to avoid allegations that the FBI had manipulated the scene. Dr. Pio R.
Rechani López, Executive Director of the Institute, told the OIG that the
Institute found no evidence that the FBI had manipulated or tampered with the
scene.



        8 At least one Puerto Rico newspaper reported a rumor that the FBI took the trumpet

from the scene as a “trophy.” This is not accurate. Investigators from the Puerto Rico Institute
of Forensic Sciences took custody of the trumpet when they processed the scene. Dr. Rechani
told the OIG that the item will be returned to Ojeda’s family when it is no longer needed for the
Commonwealth’s investigation of the Ojeda shooting incident.



                                               23
      A.    Findings on the Scene

       The Institute’s report of Findings on the Scene stated that a Browning
9 mm pistol was found on the floor of the residence near Ojeda’s body. The
pistol was loaded to capacity, with 13 unfired bullets inside its magazine and
one in the chamber, indicating that it had been re-loaded. The pistol hammer
was found cocked. The pistol had been modified to fire in both automatic and
semi-automatic mode. Also found at the scene were 107 spent shell casings
from .223 caliber bullets and 19 spent casings from 9 mm bullets.

      B.    Autopsy

      According to the Autopsy Report, Ojeda died of a single gunshot wound
that entered his body just below his right clavicle, perforated the right lung,
and exited the middle of his back on the right side. There were no other
wounds. The bullet was recovered from inside the “flak jacket” vest Ojeda was
wearing.

      The autopsy report did not specify a time of death. Dr. Francisco Cortés,
the Forensic Pathologist who performed the autopsy, told the OIG that based
on the size of the wound and reasonable assumptions about Ojeda’s heart rate
and blood pressure, he estimated that Ojeda expired from loss of blood
approximately 15 to 30 minutes after being shot. He opined that Ojeda could
have survived the wound if he had received immediate first aid and surgical
care. Dr. Cortés noted that he does not treat live patients, so that his views on
the survivability of Ojeda’s wounds and his estimate of the length of time that
Ojeda might have survived were based on his experience as a pathologist and
on his review of the medical literature.

      The OIG also consulted with the U.S. Department of Defense Armed
Forces Institute of Pathology, Office of the Armed Forces Medical Examiner
(OAFME), regarding how long Ojeda survived after being shot. Based on its
review of the autopsy records and other pertinent materials, the OAFME
concluded that the wound from the bullet was not immediately fatal, but that it
was not possible to determine exactly how long Ojeda would have survived.
When the OIG inquired whether Ojeda could have survived longer than two
hours, the Medical Examiner responded that it was unlikely.

      C.    Bullet and Shell Casing Examinations

       The Institute conducted microscopic comparisons of bullets and bullet
fragments recovered from the scene with bullets fired from Ojeda’s pistol and
from the carbines discharged by the HRT agents during the operation. The
Institute determined that the .223 caliber bullet recovered from inside Ojeda’s
vest was fired from an M4 carbine that the FBI had provided for comparison
testing. According to the HRT, this was the carbine used by Brian. The

                                       24
Institute determined that the 9 mm bullets recovered from the abdomen and
helmet of the wounded agent were fired from Ojeda’s Browning pistol.

        Based on distinctive marks left on the casings by the various weapons’
firing pins, the Institute was able to match all 107 of the .223 shell casings
found at the scene to particular HRT weapons. The Institute provided sketches
indicating the location where the .223 casings were found at the scene. With
one exception, the OIG did not find any significant discrepancies between this
forensic evidence and the statements of the agents to the OIG regarding the
rounds they fired. The Institute determined that two rounds were fired from a
weapon that the OIG determined was assigned to an HRT agent who did not
initially report firing any rounds during the gunfight. Neither of these rounds
struck Ojeda. When we sought to inquire about these rounds, the agent
declined to provide a voluntary follow-up statement to the OIG.

      The Institute determined that all 19 shell casings found inside the
residence were from 9 mm bullets fired from Ojeda’s pistol.

      D.    Trajectory Analysis

       The Institute estimated the bullet trajectories for many of the 111 bullet
holes and 76 bullet impacts found in the residence. The OIG found that the
location of the holes and impacts as reflected in Institute sketches and crime
scene photographs, together with the Institute’s trajectory analysis, were
consistent with the FBI agents’ statements in many important respects. Most
significantly, the Institute’s analysis identified the trajectories of the three
perimeter shots fired by agent Brian, including the shot that struck Ojeda. The
forensic evidence also confirmed that Ojeda fired shots from two locations:
from the narrow hallway toward the gated doorway, and from the kitchen
window. The trajectory evidence was also consistent with the agents’
descriptions of their locations during the gunfight, including the statements of
three agents who reported firing into the kitchen window from positions on the
balcony porch and other agents who reported that they fired from positions on
the embankment below.

       The OIG found only one set of trajectory estimates by the Forensic
Institute that conflicted with the statements provided by the FBI agents.
Several agents reported perceiving shots from inside the house coming through
the front door. No agents reported firing shots at the door. The Institute
found, however, that there were three holes in the front door from rounds fired
from a location outside the door and from below (from down the cinder block
steps), not from inside the house. The Institute also found three impacts in the
living room ceiling that corresponded to the holes in the door and confirmed
the upward trajectory. We sought voluntary follow-up interviews from several
agents who we believe might have fired these shots, but they declined our



                                       25
request. Consequently, we have been unable to determine which agent or
agents fired these three rounds through the front door.

      E.    Shooting Reconstruction

       The Institute concluded that the bullet that struck Ojeda was one of
three shots that originated from a location near the retaining wall at the right
side of the house at a distance of approximately 19 feet. The Institute found
that the three bullets passed through the kitchen window, penetrated the left
side of the refrigerator, and exited the front of the refrigerator. Two of the shots
presented impacts or final penetrations within the residence, while the third
(the round that struck Ojeda) did not. The third trajectory exited the
refrigerator at a height of 49 inches, which the Institute found to coincide with
the position of the bullet wound on Ojeda’s body, assuming a crouched
position.

      F.    Blood Patterns

       The Institute found that Ojeda’s flak vest prevented an immediate spatter
of blood at the location where Ojeda was wounded. The Institute concluded
that Ojeda took one or two steps toward the front door before falling to the
floor, with his head near the door. Two large pools of blood formed, one near
Ojeda’s head coming from the wound near his shoulder, and the other near the
bottom of his vest further away from the door.

      The blood pattern report concluded that the front door was closed at the
time the blood was flowing, but that the slope of the floor and the pattern of
blood were consistent with slow movement toward the door, forming a stream
on the doorstep. Institute personnel told the OIG that the bloodstain on the
doorstep was greatly increased when Ojeda’s body was turned over and pulled
out the front door onto the porch in order to check for explosive devices. The
much larger and more obvious stain appeared in photographs published in
some local newspaper reports on Ojeda’s death.


VI.   Compliance with the Deadly Force Policy

       In this Section, the OIG summarizes its analysis of whether the shots
fired by the FBI agents during the Ojeda operation were in compliance with the
Department of Justice Deadly Force Policy. The Deadly Force Policy states that
a Department of Justice law enforcement officer may use deadly force

      only when necessary, that is, when the officer has a reasonable
      belief that the subject of such force poses an imminent danger of
      death or serious physical injury to the officer or to another
      person . . . . If feasible and to do so would not increase the danger

                                        26
      to the officer or others, a verbal warning to submit to the authority
      of the officer shall be given prior to the use of deadly force.

The FBI’s Manual of Investigative and Operational Guidelines (MIOG) sets forth
a definition of the meaning of “imminent danger”:

      “Imminent” does not mean “immediate” or “instantaneous,” but
      that an action is pending. Thus, a subject may pose an imminent
      danger even if he is not at that very moment pointing a weapon at
      the Agent. For example, imminent danger may exist if Agents have
      a probable cause to believe . . . [t]he subject possesses a weapon,
      or is attempting to gain access to a weapon, under circumstances
      indicating an intention to use it against Agents or others . . . .

The FBI’s Instructional Outline for the Deadly Force Policy states that the
Policy “shall not be construed to require Agents to assume unreasonable risks
to themselves,” and that “[a]llowance must be made for the fact that Agents are
often forced to make split-second decisions in circumstances that are tense,
uncertain, and rapidly evolving.”

     The FBI’s MIOG also contains related policies regarding “fire discipline”
which require that all use of firepower be preceded by the acquisition of a
known hostile target.

       The OIG divided its review of the agents’ use of deadly force during the
Ojeda operation into two parts: an assessment of the agents’ conduct during
the initial intense exchange of gunfire between 4:28 and 4:30 p.m., and an
assessment of Agent Brian’s conduct in firing three rounds from the perimeter
at approximately 6:08 p.m., including the shot that struck Ojeda.

      A.    Assessment of the Initial Exchange of Gunfire

      Ojeda fired 19 rounds during the initial gunfight, 8 of which struck FBI
agents. One agent was wounded seriously in the abdomen. FBI agents fired
approximately 104 rounds during the initial gunfight, none of which struck
Ojeda.

       Based on our review of the evidence, we concluded that Ojeda opened fire
on the FBI agents as they attempted to enter the residence, before any agents
discharged their weapons. We based this conclusion on several factors,
including the statements of numerous agents at the scene. In addition,
because of the elevated position of the residence’s doors and windows, the
heavy vegetation obscuring them, and the fact that the interior of the house
was darkened, the agents would have had no clear target before Ojeda opened
fire. In contrast, Ojeda’s position afforded him a much clearer view of the
agents as they approached in the daylight.

                                       27
      Ojeda’s widow, Rosado, declined the OIG’s request for an interview but
alleged in statements to the media that the FBI fired first. We believe, however,
that Rosado may have interpreted the explosion of a “flash-bang” grenade
outside the house as gunfire initiated by the FBI. As previously discussed, an
FBI agent detonated the grenade near the Green/Black corner of house as a
diversionary tactic as the arresting agents approached, before any gunfire
began. 9

      We concluded that once Ojeda began firing, he clearly posed an
imminent threat to the agents. Providing a verbal warning to Ojeda at that
point was not feasible. Once the agents realized they were under fire, they
were justified in applying deadly force to address the threat, without pausing to
warn Ojeda.

       Ojeda fired at the agents from two positions: from the kitchen door
toward the gated doorway, which the agents were attempting to open, and from
the kitchen window at agents on or below the porch. We found that the vast
majority of the 104 rounds fired by the FBI during the initial gunfight were
fired at these two targets, and that these shots were consistent with the
Department of Justice Deadly Force Policy. The Instructional Outline for the
Deadly Force Policy states that “[w]hen the circumstances justify the use of
deadly force, Agents should continue its application until the imminent danger
is ended . . . .” The fact that the agents fired over 100 shots without hitting
Ojeda reflected Ojeda’s superior position of cover and elevation, and did not
necessarily reflect inadequate fire discipline.

       On the basis of forensic evidence, however, the OIG found that the FBI
fired three shots through the front door of the residence that may have violated
the Deadly Force Policy. None of these shots struck Ojeda or his wife. Nothing
in the available witness statements or the forensic evidence suggested that
these three shots addressed an imminent threat posed by a person located
directly behind the door. However, the agents who we believe may have fired
these shots declined to provide voluntary follow-up interviews to the OIG.

       B.     Assessment of the Perimeter Shots

      The OIG also assessed the three shots that Agent Brian fired into the
kitchen window at approximately 6:08 p.m. (the “perimeter shots”). One of
these shots struck Ojeda and resulted in his death. We concluded that these
shots did not violate the Deadly Force Policy.

       9 This discussion should not be construed as a finding that Ojeda would not have

opened fire on the FBI if the flash-bang had not been detonated. Ojeda had clearly made
preparations to offer violent resistance to the FBI before the agents arrived.



                                             28
      Brian told the OIG that he saw an individual in the kitchen window,
illuminated by the interior light of the refrigerator. Brian stated that the
individual was crouched down with a gun in his left hand pointing out the
window. Brian said he sighted his carbine where he believed Ojeda’s center
mass to be, and fired three rounds in rapid succession in single fire mode.

       We found that the forensic evidence reported by the Puerto Rico Institute
for Forensic Sciences was consistent with Brian’s description of where he was
and what he saw. Ojeda’s pistol was found on the floor at his side, loaded and
cocked, confirming that Ojeda was holding the gun at the moment he was
wounded. His wound was also consistent with a crouching position, with his
shoulders generally squared toward Brian. Although Brian’s view of Ojeda was
partially obscured by the refrigerator at the moment of impact, the forensic
evidence indicates that the left side of Ojeda’s body, including his left hand
(which Brian said was holding the gun), could have been visible to Brian at or
immediately prior to the moment that Brian fired the shots. Based on the
trajectory of the three perimeter shots, we believe that at the moment of impact
Ojeda may have been moving to his right, behind the refrigerator, possibly
because he realized he had revealed himself in the refrigerator light.

      In reaching our conclusion about the use of deadly force, we took into
account the fact that Ojeda had already fired several rounds out the kitchen
window, and had evidenced an intention to kill or injure the FBI agents
attempting to arrest him. He had already shot three different agents. In
addition, Brian and other agents covering the house were in exposed positions.

      The discussions between Ojeda and the FBI during the standoff did not
mitigate the threat that Ojeda presented at the moment Brian fired. Ojeda had
refused the FBI’s instructions to come out of the house. He appeared at the
kitchen window with a gun. Even if Brian had understood Ojeda’s offer to
discuss surrender if a reporter were brought to the scene, Ojeda could have
resumed firing at the FBI agents at any instant.

       For all of these reasons, the OIG concluded that at the moment Brian
fired these three shots, he had a reasonable belief that Ojeda posed an
imminent danger of death or serious injury to Brian or to other agents, and he
therefore did not violate the DOJ Deadly Force Policy. The OIG’s expert
consultants agreed with this assessment.


VII.   Assessment of the Decision to Conduct an Emergency Daylight
       Assault

     In this Section, the OIG summarizes its assessment of the decision by
SAC Fraticelli, in consultation with the HRT Deputy Commander, to order an

                                      29
emergency daylight assault on the Ojeda residence on the afternoon of
September 23.

      When the sniper-observers reported their belief that they had been
discovered by unidentified persons, Fraticelli had to select among several
options for action, taking into account the risk that these persons might alert
Ojeda to the presence of the sniper-observers or otherwise assist him in
evading or resisting arrest. Fraticelli approved a plan proposed by the HRT
Deputy Commander to transport ten HRT agents to the residence in two
helicopters and conduct an emergency daylight assault on the residence to
arrest Ojeda. We concluded that this plan was dangerous to the agents and
not the best alternative available to the FBI. In reaching this conclusion, the
OIG relied extensively on the assessments provided by its outside experts.

      A.    Foreseeable Risks from a Daylight Assault

      We found that it was readily foreseeable that Ojeda would be armed and
prepared to offer violent resistance to the FBI assault that began at 4:28 p.m.
on September 23. Moreover, if Ojeda had been armed with a higher power
firearm or with an explosive device such as a grenade (which would have been
consistent with the FBI’s prior experience with the Macheteros), several FBI
agents likely would have been killed or seriously wounded in the operation.

       The HRT Deputy Commander stated that when he proposed the daylight
assault he believed the FBI would still have the advantage of surprise and
could get into the house without a gunfight. After hearing the Deputy
Commander’s advice, Fraticelli ordered the daylight assault. We found,
however, that the belief that the FBI could surprise Ojeda with a helicopter
assault was unrealistic and inconsistent with the primary justification for
ordering the assault: the concern that whoever had detected the sniper-
observers would alert Ojeda to the FBI’s presence. The assault team did not
arrive at the residence until almost two hours after the sniper-observers
reported the compromise, providing ample time for someone to warn Ojeda and
for him to prepare resistance. In addition, the FBI should have recognized that
a plan for delivering the HRT agents by helicopter into a small field located in
plain view of the front of Ojeda’s residence would generate a great deal of noise
and take enough time to permit Ojeda to arm himself in anticipation of the
FBI’s arrival.

      The FBI’s plan for an emergency daylight assault was adapted from a
plan being prepared for a surreptitious nighttime assault. It was poorly suited
to daylight conditions, without the advantage of surprise. Once Ojeda knew
the FBI was coming, he had the advantage of high ground, superior cover, and
superior visibility. Moreover, the plan called for the agents to approach the
house and pass directly in front of the front door and the kitchen window to
reach the breach points, which exposed the agents to close range gunfire.

                                       30
       The FBI Critical Incident Handbook describes an “Emergency Assault
Plan” as an “immediate measure designed to regain control or stabilize a
rapidly deteriorating crisis situation that poses imminent danger to the lives of
innocent people.” We concluded that the reported compromise of the sniper-
observers and the resulting possibility that Ojeda would escape did not rise to
this level of urgency, particularly in light of the available alternatives.

       The HRT Deputy Commander told the OIG that after the sniper-observers
reported the compromise, no consideration was given to options other than a
direct assault on the residence to arrest Ojeda. In light of the risks associated
with this option, we concluded that other alternatives should have been given
greater consideration.

      Although the OIG is critical of the decision to conduct an emergency
daylight assault, it is important to note that we are not suggesting that this
decision was the cause of Ojeda’s death. Ojeda was not killed or injured during
the assault. Ojeda was shot approximately 100 minutes later when he
presented a threat of imminent harm to the agents, not because the FBI had
selected the emergency daylight assault option.

      B.    The Surround and Call-out Option

       In consultation with its experts, the OIG determined that a superior
option was available to the FBI for attempting to arrest Ojeda after the reported
compromise: (1) establish a perimeter around the residence sufficient to
prevent Ojeda from escaping, (2) demand Ojeda’s surrender with a short
deadline for responding, and (3) if Ojeda refused to surrender, use chemical
agents (such as tear gas and smoke) to force Ojeda from the residence. Ojeda’s
positional advantage would have been reduced or neutralized in this scenario.
The sniper-observers had already provided relevant information regarding the
residence, including the limited number of exit points from the house that
would have to be covered. This information was sufficient for the FBI to adopt,
or at least consider, this plan.

       The reasons given by the FBI for rejecting or not considering this strategy
were troubling. It appears that a major consideration in the advice given to
SAC Fraticelli was the fact that several days earlier, during the planning phase
of the Ojeda operation, Fraticelli had stated a preference to avoid a “barricaded
subject scenario” because of the potential for crowds of sympathizers to
assemble near the scene. But the reported compromise of the operation and
the loss of the advantage of surprise changed the circumstances and the
comparative risks associated with each option so significantly that the
surround and call-out option should have received serious reconsideration. We
believe that the mindset of avoiding a barricade situation caused the FBI to
ignore that option when the circumstances changed.

                                       31
       We acknowledge that the surround and call-out option presented risks.
If the agents attempting to establish a perimeter could not establish positions
of adequate cover, they might be exposed to gunfire from the residence,
particularly if the subject was armed with a rifle. The agents also faced
uncertainty regarding whether they could establish a safe perimeter in an area
believed to be populated with Macheteros sympathizers. (As it happened, the
FBI successfully established such a perimeter after the agent was wounded.) If
it had been necessary to launch chemicals into the house, some agents might
have been exposed to fire during that procedure. However, these risks to agent
safety were not as great as the risks from a foreseeable exchange of gunfire
with Ojeda firing from a position of cover at agents approaching the house
directly, or exposed on the porch, at very short range.

      C.    The Extract and Withdraw Option

      We also are concerned that the FBI gave little or no consideration to the
option of extracting the sniper-observers without taking immediate action to
arrest or surround Ojeda at the residence. In raising this concern, we are not
making a finding that the “extract and withdraw” option should have been
selected in this case. However, when a subject is not creating a crisis situation
that poses imminent danger to innocent people, and the available options for
immediately arresting or containing the subject present major risks to agents
or others, FBI incident commanders should at least consider seriously the
possibility of withdrawing. In this case, we do not believe this option was given
more than cursory consideration.

      D.    Modification of the Approach Route

       We also found that the FBI could have modified the assault plan to
reduce the risk to the agents associated with daytime conditions and loss of the
element of surprise. The assault route that the FBI borrowed from a plan for a
surreptitious pre-dawn raid – up the front steps and in front of the door and
windows on the front side of the house – maximized the exposure of the agents
to close-range fire from inside the house. As the FBI was aware, the Red and
Black sides of the house had no doors or windows. An alternative approach to
the breach point from the Red/ Black corner of the property would have
reduced the exposure of the agents to gunfire from the house.

      E.    Conducting the Assault on El Grito de Lares

      We found no support for the allegation made in some media reports that
the FBI conducted the arrest operation on El Grito de Lares (September 23) for
symbolic reasons, such as to intimidate supporters of Puerto Rican
independence. The operation took place in September because that was when
the FBI found Ojeda’s house. The FBI actually planned to arrest Ojeda early

                                       32
on September 24 the day after the holiday. It conducted the emergency assault
on September 23 only because of the reported compromise of the sniper-
observers.


VIII. Assessment of the FBI’s Decisions Regarding Entry

      In this Section we summarize the OIG’s assessment of the FBI’s
decisions regarding the delay in entering the Ojeda house after the perimeter
shots were fired at 6:08 p.m. The FBI has been criticized for failing to enter the
residence for 18 hours after Ojeda was wounded. We divide this analysis into
two parts: decisions made before 8:05 p.m. on September 23 while SAC
Fraticelli remained in charge of the operation, and decisions made after
8:05 p.m. when FBI Headquarters assumed approval authority over any plan to
enter the house.

      A.    FBI Entry Decisions in Puerto Rico before 8:05 p.m.

        We found that between 6:08 p.m. and 8:05 p.m., the FBI in Puerto Rico
was following a cautious, methodical approach in preparing to enter the Ojeda
residence. The FBI executed a limited breach of the gated doorway at
6:49 p.m. and was preparing to enter and clear the residence after darkness
fell and the electricity was cut off. The primary considerations driving this
approach were the concern that Ojeda might not be incapacitated and might
still present a threat to the agents, and the belief, based on perceptions during
the initial gunfight, that there might be a second gunman inside the residence.
This approach was designed to exploit HRT’s tactical advantage in the dark. It
also provided time to gain intelligence about the situation inside the residence
and to ensure the entry team was fully prepared. We concluded that if
Fraticelli had retained control of the entry decision, the entry probably would
have occurred shortly after 8:09 p.m. when electric power to the residence was
cut off.

      The available forensic evidence indicates that Ojeda likely expired from
blood loss before 8:09 p.m. As a result, even if Fraticelli’s plan had been
implemented, Ojeda was likely dead by the time the FBI would have entered the
residence.

      We concluded that the FBI’s approach was motivated by considerations
of agent safety, not by any desire to withhold medical treatment from Ojeda.

       One allegation made after Ojeda’s death was that the FBI knew Ojeda
was seriously injured because of the appearance of a large bloodstain on the
front doorstep and the balcony porch floor. Several Puerto Rico media outlets
published images of the bloodstain. However, crime scene photographs show
that most of the staining occurred on September 24, when Ojeda’s body was

                                       33
turned over and pulled out the front door to check for explosives. Moreover,
the agents at the scene likely would not have been able to see the blood that
accumulated before Ojeda’s body was moved, because their view of the
doorstep would have been obscured by heavy foliage or by the balcony railing,
as shown in Figures A and D. In addition, it is not clear that Ojeda’s blood had
yet flowed onto the doorstep before 8:09 p.m., when the power was cut and the
porch was in darkness. None of the agents we interviewed reported seeing a
bloodstain on September 23.

      B.    Entry Decisions made at FBI Headquarters

      At 8:05 p.m., Assistant Director Hulon informed SAC Fraticelli that any
plan to enter the Ojeda residence would have to be approved in advance by the
Counterterrorism Division in FBI Headquarters. When Fraticelli and the HRT
Deputy Commander proposed a nighttime entry, Hulon instructed him to
submit a written entry plan. Later that evening, before any written plan had
been submitted, Hulon and Executive Assistant Director Gary Bald decided
that there would be no entry until a team of relief agents from Quantico arrived
the next day. We reviewed both the procedural decision to require
Headquarters approval of an entry plan and the substantive decision to reject a
nighttime entry operation.

            1.    The decision to require Headquarters approval

      Bald made the decision to assume Headquarters control over the entry
decision. A significant factor in Bald’s decision was his assessment of
Fraticelli’s demeanor and lack of confidence, based on Hulon’s description of
conversations with Fraticelli. Bald stated that this assessment was confirmed
by what he believed were indications that HRT was acting independently of
Fraticelli. The decision to require Headquarters approval for the entry was
made in the context of a shared belief among senior Headquarters officials that
Headquarters involvement was needed to provide balance and perspective to
decision-making at the scene.

       It was difficult for the OIG to evaluate Bald’s assessment of Fraticelli’s
demeanor and confidence. Hulon told us that Bald’s assessment was fair in
light of the description Hulon had given to Bald of Hulon’s conversations with
Fraticelli. In particular, Bald was disturbed by Fraticelli’s request for
assistance from another SAC and repeated inquiries regarding the status of
this request. However, we did not find evidence, based on the decisions made
in Puerto Rico between 6:08 p.m. and 8:05 p.m., that Fraticelli was
overwhelmed or lacked sufficient confidence to manage the situation. Under
Fraticelli’s command, the FBI in Puerto Rico was proceeding cautiously and
methodically toward a nighttime entry of the residence after the power was cut
off. Moreover, we found that Fraticelli’s explanation of his reason for



                                       34
requesting help from a particular SAC with experience in Puerto Rico in the
event of a protracted crisis was objectively reasonable.

        We also did not find any evidence to confirm Bald’s perception that there
was any command confusion between HRT and the SAC in Puerto Rico. Bald’s
perception was based on a misunderstanding of the actions that were taking
place at the scene, probably because accuracy was lost in the multiple layers of
reporting from the agents at the scene to Bald. In addition, Bald’s perception
of command confusion was also based on an incorrect statement made by the
HRT Commander (who Bald thought was in Puerto Rico but who in fact was
still in Quantico) that HRT had the lead. We found no indication that HRT had
in fact assumed ultimate command control over the operation or that HRT was
operating in a manner contrary to SAC Fraticelli’s instructions.

      Ultimately, however, we did not find that Bald’s decision to require
Headquarters approval for an entry plan to be improper. Headquarters’
authority to assume such control is not in dispute. Bald’s decision to exercise
that authority in this case was based primarily on a subjective evaluation of
Fraticelli’s demeanor that was difficult for the OIG to assess after the fact.
Headquarters was ultimately responsible for the outcome of the operation, and
senior officials can offer experience and perspective to a crisis situation. While
we found that some of Bald’s understandings regarding conditions at the scene
were inaccurate, we cannot say that his decision to require Headquarters
approval of an entry plan was improper.

       However, we found that FBI Headquarters’ requirement that the entry
plan be submitted in writing was unnecessary and unduly bureaucratic,
particularly in light of the fact that FBI Headquarters officials, including Hulon,
knew that agents at the scene believed that Ojeda was wounded and on the
floor. We note, however, that Hulon ultimately rejected the plan for a nighttime
entry before it was submitted in writing, so that the writing requirement had a
limited practical impact in this case.

            2.     The decision not to enter the residence

       We found that Headquarters’ decision not to approve entry of the
residence on the night of September 23 was motivated by a concern for agent
safety and a desire to avoid additional casualties, not any desire to let Ojeda
die. The following considerations were important factors in the Headquarters’
decision: 1) agents at the scene had reported the possible presence of a second
shooter in the residence; 2) the lack of certainty regarding Ojeda’s condition
and whether he was still a threat; 3) the belief that Ojeda’s intimate knowledge
of the interior of the residence mitigated HRT’s nighttime tactical advantage;
4) the HRT agents at the scene were fatigued, and a fresh team of HRT agents
was being flown to Puerto Rico; and 5) there might be improvised explosive
devices inside the residence that would be more difficult to detect at night. In

                                        35
the judgment of Hulon, in consultation with Bald, these considerations
outweighed his concern that Ojeda might need medical treatment. We believe
that the decision Hulon made with the information then available to him was
not improper.

       However, we found that the distance and multiple layers of reporting
between the agents at the scene and the FBI Headquarters officials in
Washington affected the information that was the basis of the decision not to
enter the house during the evening of September 23. The agents at the scene
believed on the basis of what they heard from the house that Ojeda had been
seriously wounded or killed, and over the course of the evening they became
less concerned about the possibility of other subjects in the house. But their
assessments did not reach Hulon, who made his decision based on the belief
that Ojeda still posed a threat and might have an accomplice.

      Yet, Headquarters’ decision to delay entry until the next day likely had
no impact on the outcome of the operation, or on the death of Ojeda. The
forensic pathologist who performed the autopsy estimated that Ojeda died from
blood loss approximately 15 to 30 minutes after being shot, which would place
the time of death between 6:23 and 6:38 p.m. This indicates that Ojeda was
dead before Headquarters assumed control over the entry decision. Indeed,
according to the estimates from the Forensic Institute, the only chance to save
Ojeda’s life would have been for the agents to enter the residence shortly after
6:08 p.m. and evacuate Ojeda immediately. Given that an agent had been
seriously wounded in the prior effort to enter the residence, the uncertainty
regarding Ojeda’s condition, and the belief that more than one weapon had
been fired from inside the house during the gunfight, an immediate effort to
enter the house would have been a risky action and we cannot fault the FBI for
taking a more cautious approach.


IX.   The FBI’s Preparation for and Conduct of Negotiations

      The OIG also reviewed the FBI’s preparation for and conduct of
negotiations with Ojeda. During the standoff with Ojeda after the initial
gunfight, two San Juan FBI agents (one of whom was a certified negotiator)
attempted to communicate with Ojeda and convince him to surrender. Ojeda
demanded that the FBI bring a particular reporter to the scene, but SAC
Fraticelli immediately rejected this proposal.

      Prior to deploying to Puerto Rico, HRT had declined an offer from the
FBI’s Crisis Negotiation Unit in Quantico to provide negotiators for the Ojeda
operation. We concluded that this was a mistake and was also inconsistent
with the guidance provided in the FBI’s MIOG and Critical Incident Handbook.
The CONOP clearly contemplated that this operation was not merely a
surveillance mission but rather was directed at resulting in an arrest of Ojeda.

                                       36
Given Ojeda’s history of violent resistance and the challenging operational
environment, it was foreseeable that the arrest operation could result in a
barricaded subject scenario requiring negotiations.

        SAC Fraticelli recognized the possible need for negotiators and made
some contingency plans by arranging for two San Juan FBI negotiators to be
available during the operation. However, Fraticelli and his tactical advisors
inadequately integrated the negotiation component into the operation. The
negotiators were effectively excluded from HRT’s tactical planning and did not
have any meaningful interaction with the HRT agents regarding the negotiators’
possible role in the operation. In addition, the negotiators did not function as
FBI Crisis Management Program guidelines provide. The FBI failed to adhere
to its two-negotiator standard by sending only one negotiator to talk with
Ojeda.

      In addition, Fraticelli told the negotiator to reject Ojeda’s demand for the
reporter and to tell Ojeda to come out with his hands up. Fraticelli’s abrupt
approach was contrary to CNU training, which teaches that a negotiator should
never reject a demand outright, because doing so can cause the subject to stop
talking. We believe it is unlikely these mistakes would have occurred if HRT
had deployed with a CNU negotiation team it had experience working with, or
had at least coordinated its tactical planning with the San Juan FBI
negotiation team.

      However, although we are critical of certain aspects of the FBI’s
preparation for and conduct of negotiations with Ojeda during the standoff, we
cannot conclude that they affected the outcome. A Spanish-speaking
negotiator was in fact sent to the scene and negotiated with Ojeda for over half
an hour. Ojeda had reason to know that his peaceful surrender would be
accepted, as evidenced by his wife’s safe surrender. We do not believe his
decision to remain barricaded in his residence was a consequence of the way
the FBI’s negotiations were conducted.

       Moreover, even if the FBI had acceded to Ojeda’s demand, it would have
taken hours to bring the reporter to the scene and to prepare him. At
6:08 p.m., long before any reporter could have been brought to the scene,
Ojeda was seen in the kitchen window with a weapon and the fatal shot was
fired. Ojeda presented a threat at that moment, and we cannot conclude that a
different decision regarding the reporter would have likely altered the outcome.




                                       37
X.     Miscellaneous Issues

       A.     The FBI’s Communications with the Commonwealth of Puerto
              Rico

       The FBI was criticized for failing to notify Commonwealth of Puerto Rico
officials in advance of the Ojeda arrest operation. Fraticelli told us that he did
not notify local officials, the Police of Puerto Rico in particular, because he
wanted to keep the operation secret to limit the possibility of compromising
leaks. 10

       FBI regulations provide the SAC discretion in whether to notify local
authorities of operations in his jurisdiction. Restricting who is aware of or
involved in an operation where success depends on the element of surprise is a
legitimate precaution, and we did not find Fraticelli's exercise of the discretion
improper in this case.

       The FBI was also criticized for providing Puerto Rico government officials
incomplete and unsatisfying information concerning the reasons for the
delayed entry. The explanations provided to officials by the FBI – a lack of
personnel and technical equipment, and agent fatigue – also resulted in
accusations that the FBI’s lack of adequate preparation for the operation
resulted in Ojeda needlessly bleeding to death. As we described above, we
determined that the delay was primarily attributable to good faith concerns for
agent safety based on the belief there might be a second shooter in the
residence and that Ojeda might still be a threat. By missing several
opportunities to provide a better, more complete explanation for the delay to
Puerto Rico officials, including these safety concerns, the FBI contributed to
the criticism of its conduct.

       B.     Prior Opportunities to Apprehend Ojeda

      In the weeks after the incident, allegations were raised that the FBI may
have had sufficient information regarding Ojeda’s whereabouts and habits over
a period of years to enable it to safely arrest Ojeda away from his home. We
determined that although the FBI had previously received information
suggesting Ojeda’s possible presence in Hormigueros, the FBI did not
intentionally bypass opportunities to arrest Ojeda at a different location.




        10 The Puerto Rico Police were generally aware that the FBI had been attempting to

locate Ojeda, and had provided some assistance to the FBI in this effort.



                                             38
XI.   Recommendations

       Our review identified a number of deficiencies in the FBI’s conduct of the
Ojeda surveillance and arrest operation. In our report, we make ten
recommendations addressing these findings. Most of the recommendations are
intended to highlight lessons that we believe should inform the planning and
related training for future FBI operations. Other recommendations address
specific policy or tactical issues. We summarize the ten recommendations
below.

      A.    Recommendations Regarding Compliance with the DOJ Deadly
            Force Policy and Related Issues

Recommendation No. 1: Conduct an inquiry relating to the three rounds fired
by an unidentified FBI agent and the two unreported rounds fired by a known
agent.

      After the criminal investigations into this incident have been concluded,
the FBI should conduct an inquiry relating to the three rounds fired by an
unidentified FBI agent through the front door of Ojeda’s residence and the two
unreported rounds fired from a known agent, in order to determine whether
these rounds were fired in compliance with the DOJ Deadly Force Policy.

Recommendation No. 2: Review the use of flash bangs in outdoor operations.

       The FBI should review the use of flash bangs in outdoor environments
and under circumstances in which their use could have the unintended effect
of alerting the subject or providing the mistaken impression that the FBI is
opening fire on a subject.

Recommendation No. 3: Adopt a “standard load” procedure for HRT agents.

      The FBI’s HRT should adopt a standard load procedure that would
enable accurate post-incident accounting of the number of rounds fired by
each agent. Other components of the FBI should adopt similar procedures to
the extent they are not already in place.

      B.    Recommendations Regarding the Decision to Conduct an
            Emergency Daylight Assault

Recommendation No. 4: Adequately consider all available options in
emergency situations as time permits.

       We found a lack of consideration given to alternative courses of action
following the reported compromise of the FBI sniper-observers, despite the
dramatically increased risk to the FBI agents associated with an emergency

                                       39
daylight assault of Ojeda’s residence. This case highlights the importance of
adequately considering options in emergency situations, including revisiting
options that may have been discarded in the initial plan (such as the surround
and call-out option), and being prepared to consider how changed
circumstances affect the viability of original plans.

Recommendation No. 5: Enhance the Spanish language capability of HRT’s
sniper-observer teams.

      In light of the prevalence of Spanish as the primary language of most
Puerto Ricans, including Ojeda and his wife, and the need to identify Ojeda, we
believe the FBI should have anticipated that the HRT sniper-observers might
need to understand conversations in Spanish. It therefore would have been
useful to have had some Spanish-speaking agents on the sniper-observer
team. HRT should consider this need in future operations and enhance the
Spanish language capability of its sniper-observer teams.

      C.    Recommendations Regarding the FBI’s Entry Decisions

Recommendation No. 6: Ensure that, if decision-making in critical incidents is
assigned to FBI Headquarters, there is adequate communication between the
field and Headquarters concerning the situation at the scene and the decisions
that are made in Headquarters.

        FBI Headquarters’ involvement can bring significant operational
experience to crisis incidents and can provide perspective regarding how
decisions in one incident might impact FBI operations more broadly.
Headquarters’ involvement can also bring a measure of deliberation and
caution to crisis incidents that might not otherwise exist. However, this case
demonstrated how managers’ remoteness from the scene of a crisis incident
can affect the substance and process of decision-making. In response to the
Ojeda operation, the FBI should carefully consider the conditions under which
it will assume control over a crisis incident. The FBI should also evaluate how
it ensures that adequate information flows to the Headquarters officials who
must approve operational decisions, and how the FBI will ensure adequate
communication between FBI Headquarters and the on-scene commanders.

Recommendation No. 7: Ensure that the apparent miscommunication between
the HRT Commander and Deputy Commander and the chain of command
discrepancy are not repeated.

      Management from CIRG and HRT should review the chain of command
discrepancy demonstrated by the HRT Commander’s order to the Deputy
Commander that HRT not enter Ojeda’s residence, as well as the apparent
miscommunication between the Commander and Deputy Commander
concerning this order. Fraticelli, the Puerto Rico SAC, was the commander for

                                      40
the operation, and the HRT Commander did not have authority to make tactical
decisions or give orders such as this. The FBI should take appropriate steps to
ensure this situation is avoided in future HRT operations.

Recommendation No. 8: Provide guidance regarding the circumstances under
which operational plans from the field should be presented to Headquarters for
approval orally or in writing.

       Assistant Director Hulon required SAC Fraticelli and HRT to present
their proposal for a nighttime entry of Ojeda’s residence in writing under
circumstances where an oral proposal would have been sufficient and
appropriate. One of the reasons Hulon required that the proposal be in writing
was that he considered it standard procedure. FBI policy permits the use of
oral briefings in lieu of written arrest orders in “exigent circumstances.” The
FBI should consider providing further guidance regarding what circumstances
should be considered “exigent” for this purpose.

       D.   Recommendations Regarding the FBI’s Preparations for and
            Conduct of Negotiations

Recommendation No. 9: Adequately assess whether an arrest operation could
result in a scenario requiring negotiations.

       The FBI should use this case in future operations planning and training
to illustrate the importance of carefully considering whether negotiators should
be deployed under circumstances where a scenario requiring negotiations is
reasonably foreseeable, even if undesirable.

Recommendation No. 10: Ensure that negotiators are integrated into the
tactical planning where there is a potential need for negotiations.

        Recognizing that negotiators might be needed in an operation is only the
first step in planning for their potential use. As FBI guidelines provide,
effective negotiation requires that the negotiators be integrated into the tactical
planning of an operation. This was not done in this case. The FBI should us
this case to reinforce the importance of integrating negotiators into the tactical
planning of operations where negotiations might be needed.


XII.   Conclusion

       In this report, we examined the FBI’s operation to arrest Ojeda and
various issues related to it. We concluded that the FBI agents’ use of deadly
force, including the shot that struck and killed Ojeda, did not violate the DOJ
Deadly Force Policy. We also examined the FBI’s decisions to delay entry into
the residence until 18 hours after Ojeda was shot. We found that the decisions

                                        41
were motivated by considerations of agent safety, not by a desire to deny
medical care to Ojeda or to let him die. The decision by FBI Headquarters
officials to delay entry until the next day reflected a good-faith balancing of the
information known to them, although we determined that Headquarters
officials’ perception of the threat of entry differed significantly from the
perception of the agents at the scene.

      We examined other aspects of the operation, including the planning for
the assault on the residence and the FBI’s negotiations with Ojeda. We found
problems in the decision-making in these areas. We concluded that the
decisions suffered from inadequate consideration of alternative options and
inadequate preparation for foreseeable scenarios.

       While we did not conclude that any of the actions of FBI officials
constituted misconduct, we found several of their decisions deficient because
they reflected an inadequate assessment of the known circumstances, or were
either contrary to or inconsistent with applicable FBI guidelines. For these
reasons, we highlighted several of these decisions as performance issues that
we believe the FBI should examine.

      Finally, in the report we make ten systemic recommendations relating to
problems we found in the Ojeda arrest operation. Our systemic
recommendations are intended to improve the planning and conduct of future
FBI arrest operations. We believe that, if implemented, they may help the FBI
avoid some of the problems that occurred in the Ojeda arrest operation.




                                        42
